NO.
lit Zbe

ifouprente Court of the linitert liotattO
MARK CHAPMAN et al,
Petitioners,
v.
ACE AMERICAN INSURANCE COMPANY,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh
Circuit

PETITION FOR WRIT OF CERTIORARI

JOSEPH D. NIAGRI
Counsel of Record
SEAN M. MCFADDEN
MERKLE & MAGRI, P.A.
5601 Mariner St., Ste. 400
Tampa, Florida 33609
Telephone: (813) 281-9000
Email: jmagri@merklemagri.com

QUESTIONS PRESENTED
This insurance coverage case arose as a result of
the death of a ten-year-old boy receiving substance
abuse services under Florida's comprehensive
statutory scheme to address substance abuse.
Chapter 397 of the Florida Statutes gives specific
statutory rights to clients who, by definition, receive
substance abuse treatment and requires insurance
coverage for providers of treatment. A complaint
explicitly alleged duty, breach, and damages under
the statute. Because there had not been a Florida
state court decision directly applicable to the effect of
the statutory insurance-requirement provisions on
issues relating to the duty to defend, Petitioners
requested certification to the Florida Supreme Court.
The Eleventh Circuit denied certification without
providing any analysis or reason.
The questions presented are:
1. Whether the Eleventh Circuit abused its
discretion by requiring allegations not contained in
Chapter 397 and by denying petitioners' motion to
certify diapositive questions of first impression to the
Florida Supreme Court when resolving the duty to
defend without guidance from the courts of Florida.
2. Whether the Eleventh Circuit's decision
reflected a clear misapprehension of summary
judgement standards in precedent like Tolan, u.
Cotton, 572 U.S. 650 (2014), and violated Rule 56(c) by
rejecting applicable facts.
i

PARTIES
The petitioners are Mark Chapman, individually
and as personal representative of the Estate of
Gregory Chapman, deceased, and the Estate of
Barbara Chapman, deceased, Irene Chapman. The
petitioners were Plaintiffs - Counter Defendants
below.
Kathy and William Ruff and their daughter,
Melissa LaGotte, were also Plaintiffs — Counter
Defendants in the district court proceedings.
The respondent is ACE American Insurance
Company, a Pennsylvania corporation formerly
known as Cigna Insurance Company. The respondent
was Defendant — Counter Claimant below. Petitioners
acknowledge that the respondent is a corporate nongovernmental entity that issues shares of its
ownership interests publicly. So, Respondent may
have a parent company, subsidiary, or other publicly
held company (or shareholders of those companies)
that own 10% or more of any stock in Respondent.
RELATED PROCEEDINGS
• Chapman et al. v. ACE American, Ins. Co., No.8:16cv-02111-CEH-MAP, U.S. District Court for the
Middle District of Florida, Tampa Division.
Judgment entered June 21, 2018.
• Chapman et al. v. ACE American Ins. Co., No. 1812972, U.S. Court of Appeals for the Eleventh
Circuit. Judgment entered May 21, 2019
ii

TABLE OF CONTENTS
Questions Presented

i

Parties

ii

Related Proceedings

ii

Table of Contents

iii

Table of Authorities

v

Petition for Writ of Certiorari

1

Opinions and Orders Below

1

Jurisdiction

2

Statutory and Constitutional Provisions Involved

2

Statement of the Case
A. Legal Background

8
8

B.

Factual Background

C.

Proceedings Below

9
18

Reasons for Granting the Writ
21
I. The Panel abused its discretion by failing
to certify questions to the Florida Supreme
Court
26
II.
The Panel's Decision Violates Tolan v.
Cotton and FRCP 56
36
Conclusion

39

APPENDIX

111

Opinion of the United States Court of Appeals for the
Eleventh Circuit, May 21, 2019
la
Order of the District Court for the Middle District of
Florida, June 21, 2018
11a
Order of the United States Court of Appeals for the
Eleventh Circuit, May 21, 2019
39a
Order of the United States Court of Appeals, August
27, 2019
41a

iv

TABLE OF AUTHORITIES
Cases
Allegheny Cnty. v. Frank Mashuda Co., 360 U.S. 185
(1959)
28
Arizonans for Official English v. Arizona, 520 U.S 43
(1997)
29
Arnett u. Mid-Continent Cas. Co., No. 8:08-CV-2373T-27EAJ, 2010 WL 2821981 (M.D. Fla July 16,
2010)
38
Baron Oil Co. v. Nationwide Mut. Fire Ins. Co., 470
So. 2d 810 (Fla. 1st DCA 1985)
34, 37
Beiswenger Enters. Corp. v. Carletta, 46 F. Supp. 2d
1297 (M.D. Fla. 1999)
12, 25, 38
Chapman u. Fla. Dep't of Children & Families, 19
So.3d 310 (Table) (Fla. 2009)
35
Clay v. Sun Ins. Office Ltd., 363 U.S. 207 (1960)
28
DeJesus v. Seaboard Coast Line R.R. Co., 281 So 2d
198 (Fla. 1973)
17, 34
Dep't of Children and Family Servs. u. Chapman, 9 So.
3d 676 (Fla. 2d DCA 2009)
18
Dep't of Health and Rehabilitative Servs. v. Yumani,
529 So. 2d 258 (Fla. 1988)
35
Diaz-Hernandez v. State Farm Fire & Cas. Co., 19 So.
3d 996 (Fla. 3d DCA 2009)
32, 34
Duke v. Hoch, 468 F.2d 973 (5th Cir. 1972)
38
Edwards v. Thomas, 229 So. 3d 277 (Fla. 2017)
22
Erie R. Co. v. Tompkins, 304 U.S. 64 (1938)
1, 2
Everglades Marina, Inc. v. Am. E. Deu. Corp., 374 So.
2d 517 (Fla. 1979)
13, 25

v

Flores v. Allstate Ins. Co., 819 So. 2d 740 (Fla. 2002)
passim
Hatfield ex rel. Hatfield v. Bishop Clarkson Mem'l
Hosp., 701 F.2d 1266 (8th Cir. 1983)
31
Holmes v. Amerex Rent - A- Car, 113 F.3d 1285 (D.C.
Cir. 1997)
31
Intervest Constr. of Jax, Inc. v. Gen. Fid. Ins. Co., 662
F.3d 1328 (11th Cir. 2011)
30
Jones v. Fla. Ins. Guar. Ass'n, Inc., 908 So.2d 435 (Fla.
2005)
30, 34, 37
Klaesen Bros., Inc. v. Harbor Ins. Co., 410 So. 2d 611
(Fla. 4th DCA 1982)
34, 37
Langston v. Johnson, 478 F.2d 915 (D.C. Cir 1973)
12, 25, 38
Lehman Bros. v. Schein, 416 U.S. 386 (1974) ....28, 29
Lime Tree Vill. Cmty. Club Ass'n, Inc. v. State Farm
Gen. Ins. Co., 980 F.2d 1402 (11th Cir. 1993)
17
Martin v. Franklin Capital Corp., 546 U.S. 132 (2005)
28
McCreary v. Fla. Residential Prop. & Cas. Joint
Underwriting Ass'n, 758 So. 2d 692 (Fla. 4th DCA
1999)
34
Mid- Continent Cas. Co. v. C- D Jones & Co. Inc., No.
3:09CV565/MCR/CJK, 2013 WL 12081104 (N.D.
Fla. Aug. 6, 2013)
38
Miller v. Scottsdale Ins. Co., 410 F.3d 678 (11th Cir.
2005)
30
Minnesota Voters All. v. Mansky, 138 S. Ct. 1876
(2018)
28
Morales v. Zenith Ins. Co., 714 F.3d 1220 (11th Cir.
2013)
30
vi

Mullis v. State Farm Mut. Auto. Ins. Co., 252 So. 2d
229 (Fla.1971)
31, 34
Nunez v. Geico Gen. Ins. Co., 117 So. 3d 388 (Fla. 2013)
34
Prudential Prop. & Cas. Ins. Co. v. Swindal, 622 So.
2d 467 (Fla. 1993)
25
Puckett v. Rufenacht, Bromagen & Hertz, Inc., 903
F.2d 1014 (5th Cir. 1990)
31
Ranger Ins. Co. v. Culberson, 454 F.2d 857 (5th Cir.
1972)
13, 25
Salas u. Liberty Mut. Fire Ins. Co., 272 So. 2d 1 (Fla.
1972)
31, 34
Tolan v. Cotton, 572 U.S. 650 (2014)
i, 1, 12, 36, 38
Travelers Indem. Co. u. PCR, Inc. 889 So. 2d 779 (Fla.
2004)
34
U.S. Fid. Guar. Co. v. Liberty Surplus Ins. Corp., 550
F.3d 1031 (11th Cir. 2008)
30
Vasques v. Mercury Cas. Co., 947 So.2d 1265 (Fla. 5th
DCA 2007)
13, 25, 32, 34
Young v. Progressive Se. Ins. Co., 753 So.2d 80 (Fla.
2000)
34
Statutes
28 U.S.C. § 1254(1)
28 U.S.C. § 1332
Fla Stat. § 397.321(6)
Fla. Const. art. V, § 3(b)(6)
Fla. Stat. § 25.031
Fla. Stat. § 397.311(1)
Fla. Stat. § 397.311(6)
Fla. Stat. § 397.403(d)
vii

2
19
8
19, 29, 30
19, 29
21
8, 22
passim

Fla. Stat. § 397.501

passim

Fla. Stat. § 397.501(10)

passim

Fla. Stat. § 397.501(3)(a)

passim

Other Authorities
Fed. R. Civ. P. 56

passim

Fla. R. App. P. 9.150

19, 29, 30

viii

PETITION FOR WRIT OF CERTIORARI
This case presents the Court with an opportunity
to once again endorse the use of certification
procedures when available to avoid constitutional
concerns related to judicial federalism under Erie R.
Co. v. Tompkins, 304 U.S. 64 (1938), to protect state
legislation from federal court overreach, and to avoid
the misapplication of state law to deprive a litigant of
substantive rights without any clear recourse.
Ensuring that state courts have an opportunity to
resolve novel state-law questions has been repeatedly
endorsed by this Court.
The case also provides the Court with an
opportunity to reaffirm the need for federal courts to
appropriately apply summary judgment standards
under Federal Rule of Civil Procedure 56. See Tolan u.
Cotton, 572 U.S. 650 (2014).
Petitioners respectfully petition this Court for a
writ of certiorari to review the judgment and opinions
of the United States Court of Appeals for the Eleventh
Circuit entered on May 21, 2019.
OPINIONS AND ORDERS BELOW
The May 21, 2019 opinion of the court of appeals is
reported at 774 Fed. App'x 556 (11th Cir. 2019) and is
reproduced in the Appendix at la-10a. The June 21,
2018 opinion of the district court is not reported but is
available at 2018 WL 8459518 and reproduced in the
Appendix at lla-38a. The May 21, 2019 order of the
1

court of appeals denying petitioners' motion to certify
questions of law is set out at 39a-40a. The August 27,
2019 order of the court of appeals denying petitioners'
petitions for rehearing is set out at 41a-42a.
JURISDICTION
The Court of Appeals entered judgment on May 21,
2019. App. la-10a. A timely petition for rehearing and
rehearing en banc was denied on August 27, 2019.
App. 41a-42a. This Court has jurisdiction pursuant to
28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
Article III of the United States Constitution
(implied). See Erie R. Co. v. Tompkins, 304 U.S. 64
(1938).
Section 397.305 of the Florida Statutes (1998)
provides the following:
Legislative findings, intent, and
purpose.—
(1) Substance abuse is a major health
problem and leads to such profoundly
disturbing consequences as serious
impairment, chronic addiction, criminal
behavior, vehicular casualties, spiraling
health care costs, AIDS, and business
losses, and profoundly affects the
learning ability of children within our
2

schools and educational systems.
Substance abuse impairment is a disease
which affects the whole family and the
whole society and requires specialized
prevention, intervention, and treatment
services that support and strengthen the
family unit. This chapter is designed to
provide for substance abuse services.
(2) It is the purpose of this chapter to
provide for a comprehensive continuum
of accessible and quality substance abuse
prevention, intervention, and treatment
services in the least restrictive
environment of optimum care that
protects and respects the rights of
clients, especially for involuntary
admissions,
primarily
through
community-based private not-for-profit
providers
working
with
local
governmental programs involving a wide
range of agencies from both the public
and private sectors.
(3) It is the intent of the Legislature
to ensure within available resources a
full continuum of substance abuse
services based on projected identified
needs, delivered without discrimination
and with adequate provision for
specialized needs.
3

(4) It is the goal of the Legislature to
discourage
substance
abuse
by
promoting healthy lifestyles and drugfree
schools,
workplaces,
and
communities.
It is the purpose of the
(5)
Legislature to integrate program
evaluation
efforts,
adequate
administrative support services, and
quality assurance strategies with direct
service provision requirements and to
ensure funds for these purposes.
(6) It is the intent of the Legislature
to require the cooperation of
departmental programs, services, and
program offices in achieving the goals of
this chapter and addressing the needs of
clients.
(7) It is the intent of the Legislature
to provide, for substance abuse impaired
adult and juvenile offenders, an
alternative to criminal imprisonment by
encouraging the referral of such
offenders to service providers not
generally available within the
correctional system instead of or in
addition to criminal penalties.
(8) It is the intent of the Legislature
to provide, within the limits of
4

appropriations and safe management of
the correctional system, substance abuse
services to substance abuse impaired
offenders who are incarcerated within
the Department of Corrections, in order
to better enable these inmates to adjust
to the conditions of society presented to
them when their terms of incarceration
end.
(9) It is the intent of the Legislature
to provide for assisting substance abuse
impaired persons primarily through
health and other rehabilitative services
in order to relieve the police, courts,
correctional institutions, and other
criminal justice agencies of a burden that
interferes with their ability to protect
people, apprehend offenders, and
maintain safe and orderly communities.
(10)
It is the purpose of the
Legislature to establish a clear
framework for the comprehensive
provision of substance abuse services in
the context of a coordinated and orderly
system.
(11) It is the intent of the Legislature
that the freedom of religion of all citizens
shall be inviolate. Nothing in this act
shall give any governmental entity
5

jurisdiction to regulate religious,
spiritual, or ecclesiastical services.
Section 397.403(1)(d) of the Florida Statutes
(1998) provides the following:
License application.-(1) Applicants for a license under this
chapter must apply to the department on
forms provided by the department and in
accordance with rules adopted by the
department. Applications must include
at a minimum:

(d) Proof of liability insurance
coverage in amounts set by the
department by rule.
Section 397.501 of the Florida Statutes (1998)
provides, in relevant part:
Rights of clients.--Clients receiving
substance abuse services from any
service provider are guaranteed
protection of the rights specified in this
section, unless otherwise expressly
provided, and service providers must
ensure the protection of such rights.

6

(3) RIGHT TO QUALITY
SERVICES.-(a) Each client must be delivered
services suited to his or her needs,
administered
skillfully,
safely,
humanely, with full respect for his or her
dignity and personal integrity, and in
accordance with all statutory and
regulatory requirements.
*

*

*

(10) LIABILITY AND IMMUNITY.-(a) Service provider personnel who
violate or abuse any right or privilege of
a client under this chapter are liable for
damages as determined by law.
(b) All persons acting in good faith,
reasonably, and without negligence in
connection with the preparation or
execution of petitions, applications,
certificates, or other documents or the
apprehension, detention, discharge,
examination,
transportation,
or
treatment of a person under the
provisions of this chapter shall be free
from all liability, civil or criminal, by
reason of such acts.

7

STATEMENT OF THE CASE
A. LEGAL BACKGROUND
Chapter 397 of the Florida Statutes was part of a
comprehensive effort by the Florida Legislature to
address the significant economic and societal costs of
substance abuse. See Fla. Stat. § 397.305. The health
and safety of clients is expressly made a purpose of the
statute and a part of a delineation of "Client Rights"
the Florida Legislature gave to those receiving
substance abuse treatment. See Fla. Stat. §§ 397.305,
397.501. A client is defined in Fla. Stat. § 397.311(6)
as "a recipient of alcohol or other drug services
delivered by a service provider. . . ."
Section 397.403(d) requires insurance and it is
followed by Section 397.501 which provides the
declaration of "Client Rights" which must be ensured
by the service provider. Providers must provide proof
of insurance to cover those rights and have continuous
coverage with yearly proof of liability insurance. See
Fla. Stat. § 397.403(d). That insurance is an important
part of the way service providers "ensure" "Client
Rights" as required by Section 397.501. The statute
requires insurance for providers, and DCF continually
reviews a provider's insurance for that reason. See
Fla. Stat. §§ 397.403(d), 397.321(6). The regulations
existing at the time Taylor was being licensed reflect,
inter alia, that DCF considered insurance ensuring
client's health and safety when renewing licenses.

8

B. FACTUAL BACKGROUND
Robert Taylor, d/b/a Recovery Concepts, was
providing substance abuse services to minors prior to
the time that the Chapmans came to Taylor. Mark
Chapman testified that the Chapmans had been
getting medication treatment from a pediatrician and
then a psychiatrist to address their son's ADHD. The
parents were not happy with the treatment, because,
despite repeated requests for help, the approach never
changed. It was not helping their 10-year-old son,
Gregory, and caused major medication-related mood
swings that caused him to act out in troubling ways.
Major Gary Terry of the Hillsborough County, FL
Sheriffs Office (HCSO) came into the dive shop that
Mr. and Mrs. Chapman owned, and they discussed
Gregory's problems. Terry told them to contact
someone in the HCSO who then referred them to
Robert Taylor. This was routinely done by the HCSO,
primarily for juvenile substance abuse. The
Chapmans met Taylor in December 1997. Mark
Chapman further testified about how Taylor
explained the services he would provide. To Chapman,
who was completely unfamiliar with these areas,
Taylor seemed knowledgeable. He saw brochures
about the services Taylor provided. It claimed Taylor
specialized in compulsive and addictive behavior.
Taylor was interested in knowing all the
medications that Gregory was taking. Taylor said
Gregory's medications were large doses for a small
child. Taylor "very adamantly" took the position that
9

Gregory should not be taking an anti-depressant,
Paxil. Dr. Walter Afield, a psychiatrist who provided
substance abuse counseling among many other
psychiatric services to minors and adults, testified as
an expert psychiatrist, mental health provider, and
substance abuse provider in the case the family filed
against DCF related to Gregory's death. Dr. Afield
testified that drug or alcohol treatment more often
includes advice on legal medications as opposed to
illegal ones. Afield opined that Taylor's treatment and
advice to the Chapmans was substance abuse
counseling. However, it was bad advice.
The counseling Taylor gave Gregory Chapman
which directly caused his death was the counseling he
gave to substance abuse clients. Gregory's mother,
Barbara Chapman went to the majority of sessions
with Gregory and Taylor. Much of the detail of the
meetings with Taylor was provided by Dr. Afield who
had kept extensive notes of his treatment of Mrs.
Chapman following Gregory's death. Of significance to
the injuries in this case, Taylor used a tactic on
Gregory he used with his other substance abuse
clients. He told 10-year-old Gregory that he needed to
do what his parents said and follow their advice or else
he could be put into a residential (drug or alcohol)
facility by Taylor which was so bad that they removed
your shoelaces so that you did not hang yourself.
Other substance abuse clients testified to similar
admonitions during group substance abuse sessions
which scared themselves and others, especially the
10

younger clients. Dr. Afield opined that this was
outrageous advice which directly killed Gregory. On
the day of his death, May 8, 1998, Gregory Chapman
broke an expensive figurine of his parents and he was
sent to his room. Shortly thereafter, his mother found
him in his room where he had hung himself with a Tai
Kwon Do belt. Dr. Afield's testimony showed that
Taylor gave substandard treatment that was not what
Gregory was entitled to under § 397.501(3)(a). The
jury found DCF liable for the harm Taylor caused
under § 397.501(10).
Gregory Chapman committed suicide on May 8,
1998. Major Terry again became involved when Taylor
sought to get the Chapman's to pay for an expert from
California to testify that his death was not suicide.
The Chapmans and others were instrumental in
having Taylor appropriately investigated and
prosecuted. As a result, Taylor was ultimately
arrested and convicted.
These facts come primarily from undisputed sworn
testimony in a trial against the Florida Department of
Children and Families (DCF), which was tried as a
case within a case and produced in discovery in this
case. Numerous complaints were made about Taylor
from psychologists and families of people harmed or
defrauded by Taylor. Those complaints were ignored
by DCF who failed to respond to them and failed to
use specific statutory and regulatory powers given to
address this situation. As a result, Taylor continued
to harm children and families. Subsequently, the
11

Chapmans were referred to Taylor, whose treatment
caused Gregory's death. The negligence of DCF was
addressed by various witnesses. The Chapman's, Dr.
Walter Afield, and certain other witnesses who
received substance-abuse treatment from Taylor
addressed the treatment Gregory received which
violated §397.501(3)(a) and which caused his death.
The district court refused to consider the sworn
testimony or other authenticated documents from the
DCF case for reasons which violate Fed. R. Civ. P.
56(c). See Langston v. Johnson, 478 F.2d 915, 918
n.17 (D.C. Cir. 1973) (citing cases); accord Beiswenger
Enters. Corp. v. Carletta, 46 F. Stipp. 2d 1297, 1299
(M.D. Fla. 1999); see also Tolan, 572 U.S. at 656-57.
The Underlying Suit
In December 1999 the Chapmans notified ACE of
claims against Taylor and Dr. Lori Shriner, a
psychiatrist with a duty to supervise Taylor under
Chapter 397. Shriner ultimately settled. On February
16, 2000 ACE responded to Taylor by denying
coverage and refusing to defend the action. In
pertinent part the letter denying coverage provided:
Please refer specifically to the
definition of "Professional Services"
which means those services you are
licensed to provide. Since you were not
licensed to provide drug and alcohol
counseling to children or family
counseling, we must advise you that
12

there is no coverage provided to you
regarding the two captioned claims.
On November 9, 2009 an Amended Complaint was
filed in Taylor's case and the materiality of most
paragraphs arises only under Chapter 397.1 As to the
Chapmans agreeing to Taylor's treatment under
Chapter 397, paragraph 33 alleges the Chapmans
"hired" Taylor because of a referral by the
Hillsborough County Sheriffs Office (HCSO) and
Taylor's representations of his experience "as a
substance abuse provider . . .".
The Amended Complaint alleges Taylor's duties as
a substance abuse counselor, and that he breached
those duties when providing substance abuse services
which resulted in Gregory Chapman's death:
26. At all material times Robert
Taylor and Concepts owed a duty to
Gregory Chapman and Melissa Lagotte
1 Indeed, the District Court used several of these (Ifs 10, 12,
13, 14, 15, 16 and 18) to deny coverage to an innocent third-party
beneficiary of Taylor's policies with ACE by improperly finding
Taylor's substance abuse license void or voidable for fraud. This
holding violated Florida public policy protecting innocent thirdparty beneficiaries. Everglades Marina, Inc. v. Am. E. Dec. Corp.,
374 So. 2d 517, 518-19 (Fla. 1979); Vasques v. Mercury Cas. Co.,
947 So.2d 1265, 1268-69 (Fla. 5th DCA 2007); Flores v. Allstate
Ins. Co., 819 So. 2d 740, 744-45 (Fla. 2002). It also violated law
applicable to the duty to defend, because it implied the existence
of an exclusion for unestablished fraud which would prevent
coverage for services performed under an existing non-revoked
license. See Ranger Ins. Co. v. Culberson, 454 F.2d 857, 860-61
(5th Cir. 1972).

13

pursuant to Fla. Stat. § 397.501(3) to
provide services suited to their needs,
administered
skillfully,
safely,
humanely with full respect for their
dignity and personal integrity and in
accordance with all statutes and
regulatory requirements. Taylor and
Concepts breached that duty as
hereinafter set forth and are liable as
determined by law under Section
397.501(10).
27. Robert Taylor and Concepts had a
duty to provide the mental health and
substance abuse counseling at a level of
care, skill and treatment which in light
of all relevant circumstances is
recognized
as
acceptable
and
appropriate by reasonably prudent
mental health and substance abuse
counselors. Taylor and Concepts
breached that duty as hereinafter set
forth.
29. During the course of individual
and "group sessions", it was the custom
and practice of Robert Taylor to brag
that he had connections with law
enforcement and the judiciary in
Hillsborough County and wielded
sufficient influence to direct that a
juvenile be arrested and jailed on
14

criminal charges. During such sessions,
it was also his custom and practice to call
juveniles liars who denied drug
involvement and to tell the group as a
whole that when they were sent to jail,
they would have to give up their shoe
laces so they did not hang themselves.
30. From time to time in private
individual therapy sessions, Robert
Taylor threatened to have minors locked
up or sent to a boot camp if they
misbehaved where their shoe laces
would be removed to prevent suicides,
because it was a bad place. Robert
Taylor told the parents their children
needed to be threatened and punished.
33.At all material times and in
reliance on the referral by the Sheriffs
Office
and
Robert
Taylor's
representations of his competence as a
substance abuse provider and mental
health counselor for minors, the
Plaintiffs, employed Robert Taylor's
services to treat as the case may be
Gregory Chapman and Melissa Lagotte,
and paid him fees for such services.
Moreover, as part of this treatment
Taylor would say he had to counsel their
families.

15

Paragraph 35 alleged various resulting injuries
including death. All of these paragraphs are brought
together and incorporated into Count I- Wrongful
Death by ¶40. That count formed the basis of Taylor's
negligence in the DCF case and of the consent
judgment the Chapmans and Taylor later entered
into. It alleges, in pertinent part, various aspects of
Gregory's condition before alleging:
47. Due to his medical condition for
which he was receiving no competent
treatment, Gregory Chapman, from time
to time, would steal coins or break
objects. Taylor threatened to have
Gregory jailed or sent to boot camp if he
repeated such conduct.
48.
Taylor's treatment threats
caused Gregory to experience great fear,
anxiety and mental distress that he
would be jailed or sent to boot camp for
mischievous conduct which was
compulsive.
50. The Defendants further breached
their duties to Plaintiffs in the manner of
treatment of their minor son, Gregory
Chapman, in that Taylor uttered threats
to Gregory Chapman that he would be
arrested and jailed on criminal charges
and/or sent on the orders of Taylor to a
boot camp which was so bad they
16

removed your shoelaces to prevent one
hanging themselves, and otherwise
making false threats and statements for
the purpose of inducing fear in Gregory
Chapman. On May 31, 1998, after
breaking a figurine with a ball in his
home, and fearing he would be jailed or
sent to boot camp, Gregory Chapman
hung himself.
51. As a direct and proximate result
of the Defendants' conduct, as herein
described, Gregory Chapman suffered
severe and extreme emotional distress,
fear, anxiety, apprehension, humiliation
and despair as to cause him to take his
own life.
Petitioners had pled negligence per see and
damages by alleging, inter alia, a breach of the
statutory duty of care to a client under Chapter 397's
Statement of Client Rights, and Gregory Chapman's
resulting death. However, ACE again refused defense,
inter alia, because of Taylor's lack of a license to treat
See DeJesus v. Seaboard Cost Line R. Co., 281 So. 2d 198,
201 (Fla. 1973). If ACE questioned whether facts supported
substance abuse treatment, only ADHD treatment, or some other
mental health counseling, they should have defended with
reservation to see how facts developed. See e.g., Lime Tree Vill.
Cmty. Club Ass'n, Inc. v. State Farm Gen. Ins. Co., 980 F.2d 1402,
1406 (11th Cir. 1993).
2

17

minors, despite the fact that he was licensed under
Chapter 397 and the policy only required a license.
ACE also raised coverage exclusions for the first time.
On January 28, 2011 ACE was also provided
notices of an upcoming case management conference
which would specifically address four areas including
all aspects of discovery, trial, Taylor's continued
assertion of the Fifth Amendment while in prison, and
settlement. The letter also summarized the results of
the case filed against DCF, its relation to Taylor's case
and informed ACE that co-plaintiff Melissa Lagotte
became an adult during her treatment by Taylor.3
On February 18, 2011, ACE again refused to
defend. ACE stated it continued to stand by its
position coverage does not exist for the reasons stated
in the February 16, 2000 and March 11, 2010 letters.
It then raised Petitioners alleged unlicensed mental
health counseling and that Taylor did not have any
valid licenses because of misrepresentations as
alleged in the Amended Complaint ¶18. Id.
C. PROCEEDINGS BELOW
The present case arose out of Appellant's breach of
contract action against ACE seeking to enforce a
3 The jury awarded $5,991,890 to the Chapmans against DCF
for its negligence for not taking action against Taylor which, in
turn, allowed for Taylor's treatment of Chapman. Ultimately, the
judgment against DCF was overturned on the basis of sovereign
immunity. Dep't of Children and Family Servs. v. Chapman, 9
So. 3d 676 (Fla. 2d DCA 2009). That decision did not question the
reasonableness of the jury verdict.

18

Consent Judgment in the case of Chapman v. Taylor,
No. 99-06242 originally filed in the Thirteenth
Judicial Circuit in and for Hillsborough County,
Florida, as assignees of Taylor and innocent thirdparty beneficiaries of Taylor's insurance policy.
Mediation documents showed that consent judgment
was based directly upon the Count I wrongful death
count against Taylor. The amount of the consent
judgment was directly based upon the jury verdict in
the DCF case. There was no issue as to its
unreasonableness or lack of good faith.
ACE removed the case to Federal Court under 28
U.S.C. § 1332, claiming diversity of citizenship. Each
party filed motions for summary judgment. The
District Court granted summary judgment for ACE
and disposed of all claims in an Order entered on June
21, 2018 and made final and appealable by Judgment
entered that same date. Appellants filed a timely
Notice of Appeal on July 16, 2018. The Panel affirmed
the District Court's decision on May 21, 2019.
On Appeal Petitioners requested certification to
the Florida Supreme Court under Fla. Const. art. V, §
3(b)(6), Fla. Stat. § 25.031, and Fla. R. App. P. 9.150
of the following proposed questions of law:
1. Does the statutory and regulatory
scheme of Chapter 397 of the Florida
Statutes, including Fla. Stat. §
397.403(d)'s obligation of liability
insurance coverage, require liability
19

insurance that covers the service
provider's liability under Fla. Stat. §
397.501(3)(a) and (10)?
2. Must insurance coverage provided to a
substance abuse provider pursuant to
the statutory and regulatory scheme of
Chapter 397 of the Florida Statutes be
interpreted in light of the provisions of
Chapter 397.
The Chapman, et al. v. ACE Panel affirmed the
lower court's decision on duty to defend, indemnity
and left in place its consent judgment, or Coblentz,
decision. It determined, contrary to Florida law, that
an insurer's duty to defend can be based upon
consideration of selective allegations which it found do
not require defense, while ignoring allegations which
require coverage. It also determined that it can choose
one alternative claim which it determined does not
require defense while ignoring another which does.
The Panel determined that the Chapmans: had only
sued Taylor for breach of his duty as a mental health
provider; failed to allege they hired Taylor to provide
substance abuse services; and failed to allege Taylor
breached his duties as a substance abuse services
provider, while only citing certain allegations in the
complaint (js 10, 19a, 36, 43, 49).4
The Panel used ellipses that accentuated its argument but
diminished the relation of the actual allegations to the substance

20

REASONS FOR GRANTING THE WRIT
The Florida Supreme Court has stated that courts
should examine such statutes in order to determine
whether a condition or exclusion limits coverage and
whether its enforcement would be against public
policy. Months before the decision the Chapmans
sought certification to the Florida Supreme Court
(February 1, 2019) of those and other statutory issues
and on May 21, 2019 the Panel denied Appellants'
motion without analysis or reason.
Notably, in analyzing the allegations of the
complaint and making its duty to defend decision, the
Panel ignored Chapter 397 of the Florida Statutes.5
Chapter 397 specifically required insurance for a
substance abuse services provider in order for that
provider to receive a license. Fla. Stat. § 397.403(d).
In this case ACE provided that insurance. The DCF
abuse claims in the complaint. The panel further criticized
Petitioners' failure to allege Gregory "struggled with substance
abuse".
'Except to claim mental health counseling (Fla. Stat.
Chapter 491) is divorced from substance abuse counseling (Fla.
Stat. Chapter 397). First, 1126's allegation of duty and breach
comes directly from Section 397.501(3)(a) not Chapter 491.
Indeed, no liability provision from 491 is even referenced in the
complaint. Second, one cannot provide substance abuse services
without some mental health counseling. The Chapter 397 license
includes the ability to provide some related mental health
counseling. Fla. Stat. § 397.311(1). A copy of the then existing
statute is part of the appellate record.

21

had regulations requiring its investigators to review
that insurance in determining whether the provider
could protect client's rights. 10E.16.004(a)(b) and
65D-30.001 et seq. Chapter 397 contained a specific
section protecting "Client's Rights". Fla. Stat. §
397.501. A statutory duty of care arose under the
statement of Client's Rights which was applicable to
ACE as the insured's service provider. Fla. Sta. §§
397.501(3)(a) and (10). Clients were not defined as
individuals with a substance abuse problem or "who
struggled with substance abuse", but rather
individuals who "received substance abuse
treatment". Fla. Stat. § 397.311(6). In requiring an
allegation that "Gregory struggled with substance
abuse", the Panel's decision alters the statutory
liability language, and, at the very least, creates a
question of first impression under Chapter 397, in
particular Sections 397.501(3)(a) and (10) as it relates
to the duty to defend. It also contradicts other Florida
Supreme Court cases relating to: (1) statutory
construction, Edwards u. Thomas, 229 So. 3d 277 (Fla.
2017) (provisions must be read together to achieve a
consistent whole, and where possible, courts must
give full effect to all statutory provisions in harmony
with one another); (2) cases which distinguish
between insurance policies providing coverage
mandated or controlled by statute; (3) whether
Chapter 397 addresses issues like substance
treatment and ancillary mental health counseling, or
the type of protection "clients" were ensured of by the

22

legislature; and (4) avoids the actual facts testified to
by Dr. Afield.
Therefore, the panel's decision failed to consider
allegations in the amended complaint that show the
Chapmans hired Taylor for substance abuse
treatment (¶ 33 of the amended complaint) and that
alleged Taylor specifically breached the statutory
standard of care for substance abuse providers (Fla.
Stat. § 397.501(3)(a) (¶ 26 of the amended complaint)
and numerous paragraphs which describe the factual
bases of the breach of that duty of care and not some
alternative mental health standard. (See Tlis 29, 30,
33, 47, 48, 50, 51). Those allegations are incorporated
into Count I wrongful death. The Panel also violated
Florida's four corners rule by reforming allegations of
substance abuse to only be applicable to co-plaintiffs
who had settled, when the words in the complaint are
clearly applicable to all plaintiffs (footnote 3 even
though it is discussing counts other than wrongful
death). Contrary to Florida law, the decision does not
require an insurance company to defend if: there is at
least one allegation to which there would be coverage;
there is any basis for imposing liability upon the
insured that falls within coverage; if allegations are
partially within and partially outside coverage; or
when a complaint comes within coverage "at least
marginally and by reasonable implication." The
decision undermines uniformity of decisions and
creates confusion for lower courts as to the proper

23

standard to apply when analyzing an insurer's duty to
defend in Florida.
The Panel's duty to defend decision ultimately
included in footnote 5 a finding that there was no duty
to indemnify. Given these decisions the Panel did not
address allocation under the Coblentz Agreement.
ACE's indemnity argument that there was "no
evidence" that Gregory Chapman "was provided
substance abuse counseling by Taylor," may have
affected the Panel's assertion of a missing allegation
in the complaint contrary to a reasonable reading of
paragraphs 33, 26, 29, 30, 33, 47, 48, 50 and 51, all of
which are incorporated in the wrongful death count.
On the merits it is particularly troubling because the
undisputed testimony from Mark Chapman,
admissible treatment notes from Barbara Chapman
and testimony from a treating/expert psychiatrist
engaged, inter cilia, in substance abuse treatment and
mental health therapy, was that Gregory Chapman
was receiving substance abuse treatment from Taylor.
Several witnesses who received substance abuse
treatment from Taylor testified that Taylor used the
same substance abuse treatment tactic on them which
the expert testified resulted in Gregory's death. As for
the complaint, this is captured in Ins 26, 29, 30, 32,
42, 48, 50 and 51. None of this was mental health
counseling and certainly not exclusively such.
The Panel's decision also left in place a District
Court decision that: (1) contradicts Florida Supreme
Court precedent protecting the rights of innocent
24

third-party beneficiaries who are victims of fraud
unexcluded from coverage by contract, Everglades,
374 So. 2d at 518-19; (2) rejected the decades long
precedent in Florida holding that coverage is governed
by policy language and not arguments arising outside
the policy, Ranger Ins. Co. u. Culbertson, 454 F.2d 857,
860-861 (5th Cir. 1971), cert denied, 407 U.S. 916
(1972) (holding that an insured pilot with a valid and
effective student certificate at the time of a crash was
holding a "proper pilot certificate" even "though at the
time of the crash he was carrying a passenger in
violation of restrictions on the face of the student
certificate and in violation of FAA regulations"); (3)
accepted arguments that policies can be reformed by
inferring provisions or exclusions not in the policy
against insureds or innocent third-party beneficiaries
contrary to Florida case law, Everglades, 374 So. 2d at
518-19; Flores, 819 So.2d at 744; Vasques, 947 So. 2d
at 1268-69; (4) contradicted Florida case law on the
inapplicability of intentional conduct exclusions to
unintentional injuries which would include a child's
suicide that facts unequivocally show was not
expected or intended from the standpoint of the
insured, see Prudential Prop. & Cas. Ins. Co. v.
Swindal, 622 So. 2d 467, 472 (Fla. 1993); (5) rejected
as "evidence" sworn testimony and affidavits of
people, available for trial, including those from
another case (the DCF case) when deciding a
summary judgment despite Fed. R. Civ. P. 56(c) and
case law, see Langston, 478 F.2d at 918 n.17 (D.C. Cir.
1973) (citing cases); accord Beiswenger, 46 F. Supp. 2d
25

at 1299 (M.D. Fla. 1999) ("Trial testimony, even when
from a proceeding in which the parties, subject
matter, and counsel are not the same can be used
because it is sworn testimony which is at least as
reliable as that found in affidavits.") (citing Langston);
and (6) will increase litigation in Florida and obstruct,
or undermine consent judgment settlements which
are undisputedly both reasonable and made in good
faith by failing to recognize that allocation legally can,
and in this case clearly did, occur outside the Consent
Judgment in mediation related settlement
documents.
Significantly as it relates to this petition, any
reasonable reading of Section 397.501(3)(a) would
have precluded the court's decision in at least (1), (2),
(3), and (4), above. It would have also avoided the
court's failure to consider the negligence per se
allegations in paragraphs 26, 29, 30, 33, 35, 47, 48, 50
and 51 of the complaint. Finally, certification would
have addressed whether the required liability
insurance policy matched the service provider's
liability under Sections 397.501(3)(a) and (10).
I.

The Panel abused its discretion by failing
to certify questions to the Florida
Supreme Court.

By not certifying the questions to the Florida
Supreme Court, the Eleventh Circuit has significantly
impaired the rights of "clients" that state legislation
specifically sought to ensure under Section 397.501.
26

The court revised the statute away from providing
rights to recipients of substance abuse treatment. It
has limited those covered by the statute to persons
who "struggled with substance abuse". The Florida
Supreme Court should be the first to determine
whether such changes can be made to Chapter 397.
The Florida Supreme Court should also be the first to
determine whether Chapter 397 requires insurance
coverage to ensure the protection of delineated rights
of clients or must be construed as limited by clauses
implied into the insurance contract after a lawsuit is
filed.
Petitioners moved for certification below. The
Eleventh Circuit panel denied petitioners motion but
provided no analysis of the factors.
As a matter of state-federal comity, the federal
courts have the responsibility to give due deference to
the state courts in interpreting their own laws.
Certification would respect the explicitly stated
interests of the Florida Legislature in enacting
Chapter 397. There is no serious dispute that Chapter
397 of the Florida Statute was alleged to have been
violated. The Eleventh Circuit's decision cites to no
case law interpreting Chapter 397. Therefore, this
Court should permit the Florida Supreme Court to
decide whether the statute is limited to clients who
"struggled with substance abuse," despite the words of
the statute.

27

Whether to certify a question is a matter of
discretion. However, "[d]iscretion is not whim, and
limiting discretion according to legal standards helps
promote the basic principle of justice that like cases
should be decided alike." Martin v. Franklin Capital
Corp., 546 U.S. 132, 139 (2005). This Court has
repeatedly encouraged certification of questions to
state courts. See, e.g., Clay v. Sun Ins. Office Ltd., 363
U.S. 207, 212 (1960) (citing Allegheny Cnty. v. Frank
Mashuda Co., 360 U.S. 185, 189 (1959) ("[W]e have
frequently deemed it appropriate, where a federal
constitutional question might be mooted thereby, to
secure an authoritative state court's determination of
an unresolved question of its local law.")); Lehman
Bros. v. Schein, 416 U.S. 386, 391 (1974) ("[R]esort to
[certification] would seem particularly appropriate in
view of the novelty of the question and the great
unsettlement of Florida law ... we have referred to
ourselves on this Court in matters of state law, as
,
outsiders' lacking the common exposure to local law
which comes from sitting in the jurisdiction.").
The Eleventh Circuit decided dispositive questions
of first impression regarding the meaning and
interpretation of Chapter 397, which is part of a
comprehensive scheme, without taking the
preferential first step of asking the Florida courts to
provide an accurate picture of what, exactly, Chapter
397 means or intends. See Minnesota Voters All. v.
Mansky, 138 S. Ct. 1876, 1894-95 (2018)
(SOTOMAYOR, J., dissenting). As noted by this
28

Court, federal courts should be particularly hesitant
to speculate as to possible constructions of state law
when "the state courts stand willing to address
questions of state law on certification." Arizonans for
Official English v. Arizona, 520 U.S. 43, 78-79 (1997)
(internal quotation marks omitted). As noted by this
court, certification "save [s] time, energy, and
resources and helps build a cooperative judicial
federalism." Lehman Bros., 416 U.S. at 391. Affording
the Florida Supreme Court the opportunity to issue a
definitive interpretation would be most consistent
with considerations of comity, federalism, and judicial
restraint.
The Florida Constitution authorizes the United
States Courts of Appeal to certify questions about
state law to the Florida Supreme Court if the
questions are "determinative of the cause and for
which there is no controlling precedent of the supreme
court of Florida." Fla. Const. art. V, § 3(b)(6).
Correspondingly, under the Florida Rules of Appellate
Procedure, this Court "may certify 1 or more questions
of law to the Supreme Court of Florida if the answer
is determinative of the cause and there is no
controlling precedent of the Supreme Court of
Florida." Fla. R. App. P. 9.150(a); see also Fla. Stat. §
25.031 (authorizing the Florida Supreme Court to
receive and answer certified questions or propositions
of state law from federal appellate courts, including
any circuit court of appeals of the United States). This

29

Court may certify questions of law either on own
motion or on motion of a party. See id.
"Substantial doubt about a question of state law
upon which a particular case turns should be resolved
by certifying the question to the state supreme court."
Jones v. Dillard's, Inc., 331 F.3d 1259, 1268 (11th Cir.
2003); see also Morales u. Zenith Ins. Co., 714 F.3d
1220, 1234 (11th Cir. 2013) (certifying questions of
law in insurance dispute to the Florida Supreme
Court because the appeal depended on resolution of
unsettled Florida law); Intervest Constr. of Jax, Inc. u.
Gen. Fid. Ins. Co., 662 F.3d 1328, 1332-33 (11th Cir.
2011) (certifying questions of law where there was no
controlling precedent from the Florida Supreme Court
and resolution of the contrasting interpretations of
the policy language raised by the parties was
determinative of the cause in this case"); U.S. Fid.
Guar. Co. v. Liberty Surplus Ins. Corp., 550 F.3d 1031,
1034-35 (11th Cir. 2008) (certifying questions of law
where the issue presented in this appeal was
unsettled under Florida law"); Miller v. Scottsdale Ins.
Co., 410 F.3d 678, 681 (11th Cir. 2005) ("Rather than
predict how this question of Florida law should be
decided, we certify the issue to the Florida Supreme
Court for a definitive statement.").
Petitioners proposed certified questions satisfied
the criteria of Fla. Const. art. V, § 3(b)(6) and Fla. R.
App. P. 9.150(a). The Eleventh Circuit should have
certified the questions to the Florida Supreme Court
for a definitive interpretation of the statutory scheme
30

of Chapter 397. The motion set forth the reasons why:
(A) the proposed question was determinative of the
cause, (B) there is no controlling precedent of the
Florida Supreme Court, and (C) public policy
implications favored certification.
The failure to certify questions can have an
significant adverse impact on the substantive rights
of citizens of Florida It has deprived the Chapmans of
substantive rights without any clear recourse.6
Under Florida law, in cases involving statutorilymandated or controlled coverage, "analogies to cases
interpreting coverages that are not statutorily
mandated, such as provisions in fire, life and property
insurance policies, may not necessarily be
illuminating in guiding [the Court's] analysis." Flores,
819 So. 2d at 745. In fact, the Florida Supreme Court
has repeatedly distinguished between general
insurance policies and policies providing coverage
mandated or controlled by Statute. See Mullis v. State
Farm Mut. Auto. Ins. Co., 252 So. 2d 229, 232-34
(Fla.1971) (stating that automobile liability insurance
and uninsured motorist coverage obtained to comply
6 This decision is contrary to other circuits who have shown
support for certification where there is an absence of controlling
precedent or where the state law on an issue is unsettled. See,
e.g., Puckett v. Rufenacht, Bromagen & Hertz, Inc., 903 F.2d 1014
(5th Cir. 1990); Holmes v. Amerex Rent-A-Car, 113 F.3d 1285
(D.C. Cir. 1997); Hatfield ex rel. Hatfield v. Bishop Clarkson
Mena Hosp., 701 F.2d 1266 (8th Cir. 1983).

31

with or conform to the law cannot be narrowed by the
insurer through exclusions contrary to the law); Salas
u. Liberty Mut. Fire Ins. Co., 272 So. 2d 1, 5 (Fla. 1972)
(finding insurance coverage issued pursuant to
statute not susceptible to the attempts of the insurer
to limit or negate the protection afforded by law);
Flores, 819 So. 2d at 745 (noting that courts have an
obligation to invalidate exclusions on coverage that
are inconsistent with the purpose of the statute that
mandates coverage); see also Diaz-Hernandez u. State
Farm Fire & Cas. Co., 19 So. 3d 996, 1000 (Fla. 3d
DCA 2009) (invalidating a policy provision because it
was against the public policy of the statute); Vasques,
947 So.2d at 1269 (stating that restrictions on
statutorily mandated coverage must be carefully
examined because exclusions that are inconsistent
with the purpose of the statute are invalid). In Nunez
v. Geico Gen. Ins. Co., 117 So. 3d 388, 393 (Fla. 2013),
the Florida Supreme Court stated courts should
examine whether the condition or exclusion limits
coverage and whether its enforcement would be
against public policy.
In this case, ACE's policy does not exclude
coverage; however, the panel held that coverage was
barred without even considering the Chapter 397
allegations. Case law and statutory public policy
should preclude that. It was alleged that the
Petitioners suffered injury and damage while
receiving substance abuse treatment. Section

32

397.501(3)(a), which was explicitly alleged, directly
covers that injury and damage.
The legislative findings, intent, and purpose are
set forth in Section 397.305. In short, Chapter 397,
like various automobile requirements, is part of a
broad spectrum of civil and criminal statutes that the
Florida Legislature has passed to address substance
abuse problems. Because of its significance as part of
the overall response to the problems recognized by the
Legislature, Chapter 397 contains specific statutory
provisions guaranteeing "rights" for substance abuse
clients. Those statutes include the requirement that a
substance abuse provider have insurance in order to
obtain a license. Fla. Stat. § 397.403(d). The DCF Site
Visits and the applicable regulations establish DCF
looked at Taylor's insurance when it licensed him just
as it looks at other providers' to ensures the health
and safety of clients.
Section 397.501 begins by stating providers must
ensure the protection of such rights. That Section
continues with several important rights including
Section 397.501(3)(a). The notice of claims that were
sent to ACE for the Chapmans and the Amended
Complaint expressly allege that Taylor failed to
provide Petitioners with those enumerated rights. The
notice for the Chapmans and paragraph 26 of the
amended complaint expressly allege duty, breach, and
damages under Section 397.501(3)(a). Subsequent
paragraphs allege specific facts including the ones Dr.
Afield testified caused Gregory's death.
33

By not certifying questions to the Florida Supreme
Court, the panel, as did the district court decision,
proceeded to ignore Section 397.501(3)(a) and settled
principles applicable to an insurer's duty to defend.
This contradicted Florida's four-corners rule, and the
panel adopted a rule of reformation to do away with
the applicability of substance abuse counseling
allegations in the complaint otherwise applicable to
the Chapma. See Jones v. Fla. Ins. Guar. Ass'n., 908
So. 211 435, 442-36 (Fla. 2005); McCreary v. Fla.
Residential Prop. & Cas. Joint Underwriting Ass'n,
758 So. 2d 692, 695 (Fla. 4th DCA 1999); Baron Oil
Co. v. Nationwide Mutual Fire Ins. Co., 470 So.2d 810,
813-14 (Fla. 1st DCA 1985); Klaesen Bros., Inc. v.
Harbor Ins. Co., 410 So. 2d 611, 613 (Fla. 4th DCA
1982).
By failing to consider Chapter 397 and certify
issues to the Florida Supreme Court, the decision also
contradicted the following cases: Mullis, 252 So. 2d at
232-34; Salas, 272 So. 2d at 5; Flores, 819 So. 2d at
745; Diaz-Hernandez, 19 So.3d at 1000; Vasques, 947
So.2d at 1269; Nunez, 117 So. 3d at 393; DeJesus, 281
So.2d at 201; Young v. Progressive Se. Ins. Co., 753
So.2d 80, 83 (Fla. 2000); Travelers Indem. Co. v. PCR,
Inc. 889 So. 2d 779 (Fla. 2004).
The Panel erred by overlooking, indeed changing,
the language of Chapter 397 and denying certification
to the Florida Supreme Court.

34

Finally, it is notable that lawsuits against the
HCSO and DCF were dismissed due to sovereign
immunity under state of Florida law. In DCF, due to
various appeals and other legal delays, three different
trial level judges allowed the DCF case to go forward
under Dep't of Health and Rehabilitative Serus. v.
Yumani, 529 So. 2d 258 (Fla. 1988). The Second
District Court of Appeals, however, dismissed the case
under Florida's sovereign immunity law. The Florida
Supreme Court denied review on a 4-to-3 vote.
Chapman v. Fla. Dep't of Children & Families, 19
So.3d 310 (Table) (Fla. 2009). However, all of these
results were reached by Florida courts considering
Florida law.
In the current case, ACE removed the case to
federal court on diversity grounds, as was its right.
Respondent, inter alia, attacked Taylor, his crimes,
his alleged fraud, and argued that, although Taylor
was licensed under Chapter 397 that had only one
license, it argued he did not have the kind of license
he needed. It also argued that sworn testimony and
authenticated exhibits from the DCF case, upon which
the Chapmans relied to address indemnity and other
factual issues, were not admissible for summary
judgment purposes under Rule 56(c). The district
court's order appears to have been influenced by many
of these arguments and did not apply Florida Supreme
Court case law which protected innocent third-party
beneficiaries even in the face of criminal conduct

35

absent an express contractual provision supporting a
lack of coverage. Everglades, 374 So. 2d at 518-19.7
On appeal, these issues were briefed but without
oral argument the key issue seemed to become
whether Chapter 397 was even applicable to the
Chapmans with a demand for allegations not required
by Chapter 397 itself. Notably, these arguments
would have been applicable in the DCF case, but no
Florida court determined that they were applicable.
Likewise, the contributory fault of the Chapmans was
alleged and litigated in the DCF case, and based on
that evidence, DCF dropped the defense just prior to
submission to the jury.
The central issues of this case related to Chapter
397 need to be resolved under Florida law by the
Florida Supreme Court. It is Florida, not
Pennsylvania or other states, who will live with the
insurance industry's reaction to a case of critical
importance to Florida. See Fla. Stat. § 397.305. It is
Florida's legislature that needs to know what its
courts reason about these issues.
II. The Panel's Decision Violates Tolan v.
Cotton and FRCP 56
By selectively applying, overlooking and reforming
the allegations in the amended complaint, the panel's
7 The district court even confused Taylor's alleged fraud in
obtaining a state license with his non-fraudulent obtaining of
insurance, despite the parties' stipulation that ACE was not
asserting a misrepresentation defense to the policy.

36

decision violates Tolan, u. Cotton, 572 U.S. 650, 656-57
(2014). Moreover, its requirement that there be an
allegation that "Gregory struggled with substance
abuse" is contrary to Section 397.501(3)(a). The
amended complaint's allegation of a violation of
397.501(3)(a) as well as factual allegations of duty,
breach, and damages required ACE to at least defend
until it determined that Gregory was not a client
under Chapter 397. On what basis did the panel or
ACE believe that he cannot? No basis was cited. ACE,
however, argued that the actual facts showed Gregory
could not establish that he was a substance abuse
client. In doing so, ACE claimed that the sworn
testimony and authenticated documents from the
DCF trial could not be considered. That position
violates Federal Rule of Civil Procedure 56(c).
The Panel erred by selecting allegations it felt
alleged mental health counseling to find no duty to
defend. It overlooked more and stronger allegations
of substance abuse counseling. See ¶Its 26, 27, 29, 30,
39, 47, 48, 50, and 51, supra. Under Florida law a
liability insurer's duty to defend arises when the
complaint "alleges facts that fairly and potentially
bring the suit within policy coverage." Jones, 908
So.2d at 443. If the allegations of the complaint leave
any doubt regarding the duty to defend, the question
must be resolved in favor of the insured requiring the
insurer to defend. Baron Oil, 470 So.2d at 813-14; see
also Jones, 908 So.2d at 444; Klaesen Bros., 410 So. 2d
at 613 (holding that a complaint is sufficient to invoke
37

the duty to defend when it alleges conduct that comes
within coverage of the policy "at least marginally and
by reasonable implication").
The panel's duty to defend decision fails to address
allegations of breach and damages covered by Chapter
397 of the Florida Statutes, which contains the
statutory duty of care. Its breach was negligence per
se, and does not require an allegation that "Gregory
struggled with substance abuse". The Panel
erroneously required this unnecessary language while
ignoring the language of 'Illi 26 et seq. which is far
more precise than the mental health allegations the
Panel credits.
Having denied Petitioners' duty to defend rights, it
left in place the district court's decision on the duty to
indemnify. That decision also rejected sworn evidence
contrary to Fed. R. Civ. P. 56 (c) and Tolan, supra. "It
is well-settled that a certified transcript of judicial or
administrative proceedings may be considered on a
motion for summary judgment." Langston, 478 F.2d
at 918 n.17 (citing cases); accord Beiswenger, 46 F.
Supp. 2d at 1299 ("Trial testimony, even when from
a proceeding in which the parties, subject matter,
and counsel are not the same can be used because it
is sworn testimony which is at least as reliable as that
found in affidavits.") (citing Langston). It also left in
place contradictions on whether allocation of a
Consent Judgment can be made outside the Consent
Judgment contrary to Duke u. Hoch, 468 F.2d 973, 976
(5th Cir. 1972) (applying Florida law); Arnett v. Mid38

Continent Cas. Co., No. 8:08-CV-2373-T-27EAJ, 2010
WL 2821981, at *5-6 (M.D. Fla July 16, 2010); MidContinent Cas. Co. u. C-D Jones & Co. Inc., No.
3:09CV565/MCR/CJK, 2013 WL 12081104, at *5 (N.D.
Fla. Aug. 6, 2013).

CONCLUSION
For the foregoing reasons, this Court should grant
this petition and issue a writ of certiorari to review the
judgment and opinion of the Eleventh Circuit Court of
Appeals.
Respectfully submitted,
JOSEPH D. MAGRI
Counsel of Record
SEAN M. MCFADDEN
MERKLE & MAGRI, P.A.
5601 Mariner St., Ste. 400
Tampa, Florida 33609
Telephone: 813-281-9000
Email:jmagri@merklemagri.com

39

